No. 20-1786

 

IN THE
Supreme Court of the United States

JOANNE TROESCH, ET AL.,

Petitioners,
Vv.

CHICAGO TEACHERS UNION, LOCAL UNION NO. 1, AMERICAN
FEDERATION OF TEACHERS, ET AL.,

Respondents.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

CERTIFICATE OF SERVICE

Undersigned counsel, a member of the Bar of this Court, certifies that all
parties required to be served have been served with the BRIEF IN OPPOSITION
FOR RESPONDENT CHICAGO TEACHERS UNION, LOCAL UNION NO. 1,
AMERICAN FEDERATION OF TEACHERS, in that three copies were served on
counsel of record for Petitioner and Respondents, this 27th day of September, 2021,
by overnight mail, postage prepaid addressed as follows:

Thomas Arthur Doyle William L. Messenger
(Counsel of Record) (Counsel of Record)
Board of Education of the City of National Right to Work Legal Defense
Chicago (Law Department) Foundation, Inc.
1 North Dearborn 8001 Braddock Road, Suite 600
9th Floor Springfield, VA 22160
Chicago, IL 60602 703.321.8510

773.553.1720
Zi

JOSHUA B. SHIFFRIN

(Counsel of Record)
BREDHOFF & KAISER, P.L.L.C.
805 15th Street N.W.
Suite 1000
Washington, DC 20005
202.842.2600
jshriffrin@bredhoff.com

Counsel for Respondent Chicago
Teachers Union, Local Union No. 1,
American Federation of Teachers.
